<html>
<title> - NOMINATION OF JOE M. ALLBAUGH TO BE DIRECTOR OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY (FEMA)</title>
<body><pre>[Senate Hearing 107-13]
[From the U.S. Government Printing Office]




                                                         S. Hrg. 107-13

                     NOMINATION OF JOE M. ALLBAUGH

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 ON THE

 NOMINATION OF JOE M. ALLBAUGH TO BE DIRECTOR OF THE FEDERAL EMERGENCY 
                        MANAGEMENT AGENCY (FEMA)


                               __________

                           FEBRUARY 13, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs


                   U.S. GOVERNMENT PRINTING OFFICE
70-751                     WASHINGTON : 2001


_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              CARL LEVIN, Michigan
GEORGE V. VOINOVICH, Ohio            DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi            ROBERT G. TORRICELLI, New Jersey
JUDD GREGG, New Hampshire            MAX CLELAND, Georgia
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
                                     JEAN CARNAHAN, Missouri
             Hannah S. Sistare, Staff Director and Counsel
                       Johanna L. Hardy, Counsel
     Joyce A. Rechtschaffen, Democratic Staff Director and Counsel
                  Susan E. Propper, Democratic Counsel
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
                                                                   Page

Opening statements:
    Senator Thompson.............................................     1
    Senator Lieberman............................................     3
    Senator Voinovich............................................     4
    Senator Akaka................................................     5
    Senator Cochran..............................................     6
    Senator Carnahan.............................................     6
    Senator Domenici.............................................     7

                               WITNESSES

Hon. Phil Gramm, a U.S. Senator from the State of Texas..........     2
Hon. Kay Bailey Hutchison, a U.S. Senator from the State of Texas     3
Joe M. Allbaugh to be Director of the Federal Emergency 
  Management Agency (FEMA).......................................     8

                     Alphabetical List of Witnesses

Allbaugh, Joe M.:
    Testimony....................................................     8
    Prepared statement...........................................    21
    Biographical and financial information.......................    24
    Pre-hearing questions and responses..........................    33
    Post-hearing questions and responses.........................    47
Gramm, Hon. Phil:
    Testimony....................................................     2
Hutchison, Hon. Kay Bailey:
    Testimony....................................................     3

 
 NOMINATION OF JOE M. ALLBAUGH TO BE DIRECTOR OF THE FEDERAL EMERGENCY 
                        MANAGEMENT AGENCY (FEMA)

                              ----------                              


                       TUESDAY, FEBRUARY 13, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Fred 
Thompson, Chairman of the Committee, presiding.
    Present: Senators Thompson, Voinovich, Cochran, Domenici, 
Lieberman, Akaka, and Carnahan.

             OPENING STATEMENT OF CHAIRMAN THOMPSON

    Chairman Thompson. The Committee will be in order, please. 
This morning, we are holding a hearing to consider the 
nomination of Joe Allbaugh to be Director of the Federal 
Emergency Management Agency (FEMA). We recognize Senator Gramm 
and Senator Hutchison of Texas.
    The Director of FEMA is one of the most important positions 
in government and is extremely important to the safety of the 
public. FEMA is the central Federal agency for emergency 
planning, preparedness, mitigation, response, and recovery. It 
works closely with State and local governments by deploying 
Federal resources when disaster occurs, funding emergency 
programs, and offering technical guidance and training to 
communities nationwide.
    FEMA has coordinated the expenditure of upwards of $2.8 
billion in a single year for disaster relief. Because of the 
nature of FEMA's mission, the Director will need to assure that 
we have invested in adequate capacity and resources and then 
manage them effectively in order to serve the expected 
emergency needs of the country. The agency faces a number of 
management challenges, such as creating a performance-based 
culture, strengthening internal control deficiencies, 
performing cost-benefit analysis of information technology 
investments, and better managing disaster grants. With strong 
leadership, I believe this agency will represent what the 
Federal Government does best, facilitate and coordinate 
assistance to communities in need of support after a natural 
disaster.
    Mr. Allbaugh has filed responses to a biographical and 
financial questionnaire, answered pre-hearing questions 
submitted by the Committee, has had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made a part of the hearing record, 
with the exception of the financial data, which is on file and 
available for public inspection in the Committee's offices.
    Our Committee's rules require that all witnesses at 
nomination hearings give their testimony under oath, so Mr. 
Allbaugh, would you please stand and raise your right hand.
    Do you solemnly swear to tell the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Allbaugh. I do.
    Chairman Thompson. Thank you very much. Please be seated.
    At this point, I would like to give Mr. Allbaugh an 
opportunity to introduce any family members that may be in the 
audience this morning.
    Mr. Allbaugh. Thank you, Mr. Chairman and Members. I am 
honored today to have my bride with me of umpteen years, 16 
years. I am lucky that she is here.
    Senator Carnahan. You are already in trouble.
    Mr. Allbaugh. I know. I am always in trouble. [Laughter.]
    But Diane is at my side almost every day, every hour, and I 
am blessed to have her a part of my family and I am blessed to 
be a part of her family, as well as our kids. We are very 
fortunate. Thank you, sir.
    Chairman Thompson. Well, thank you very much. We welcome 
all of you here this morning, both family and friends.
    I will call on Senator Lieberman now for any opening 
remarks. I understand, however, that Senator Gramm has another 
hearing that he must attend, so we will try to get to you.
    Senator Lieberman. Do you want to go ahead, Senator Gramm?
    Senator Gramm. Thank you very much, Senator.
    Chairman Thompson. He is the senior Senator.
    Senator Lieberman. If you do, you owe me a big one.
    Senator Gramm. Well, listen, I have already paid. I am 
introducing the man that helped keep you in the Senate. 
[Laughter.]
    A higher and better use of your talents.
    Senator Lieberman. I knew I should not have let you go 
forward. You have stolen my opening line.

TESTIMONY OF HON. PHIL GRAMM, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Gramm. Mr. Chairman, I will be brief. Thank you. As 
you know, the Banking Committee has Alan Greenspan downstairs 
and everybody always wants to speak for him and what he says is 
sort of like the Bible.
    To make a long story short, I have known Joe Allbaugh for a 
very long time. He is highly respected by everybody in Texas 
who has worked for him. As you all know, he has been our 
governor's right-hand man on numerous issues, including 
disaster relief in Texas. The thing that has always impressed 
me about Joe is that when we have had disasters in Texas--as 
the governor's chief of staff, he has been the point man in 
dealing with disasters in our State--Joe has always cared 
enough to go out where the disaster occurred, look people in 
the face, and ask them what he and the governor and the State 
could do to help.
    He is a very effective administrator: He follows up, he 
gets the details right. He is exactly the right person for this 
job, in my opinion. He is what we call in my State a ``top 
hand.'' He is the kind of guy you want on your side when you 
have something important to do, and it seems to me that this is 
an important function.
    So I am very happy to be here and commend Joe to you. I 
just cannot imagine anybody who would have been a better 
appointment by our new President. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much. Get down there and 
make sure Mr. Greenspan does not change his mind.
    We will now call on Senator Hutchison.

TESTIMONY OF HON. KAY BAILEY HUTCHISON, A U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Hutchison. Thank you very much. I appreciate the 
Committee allowing us to go forward, because I think it is 
important to note that both Senators are here because we know 
Joe Allbaugh personally. We have worked with him on many issues 
and he brings the right experience to this job. Because of his 
role as the Chief of Staff for the Governor of Texas, he 
managed and monitored the State's responses to disasters and 
emergencies in Texas, and, of course, that was working very 
closely with FEMA. So he knows what the States need and what 
people need in a disaster.
    I think his management skills are very well known and well 
regarded, and I would say that in his tenure as Chief of Staff 
for Governor Bush, he presided over 18 disasters. In Texas, we 
seem to have them all, floods, tornadoes, and hurricanes. So he 
has the kind of experience that I think will not only help him 
coordinate these emergencies, but relate to the governor's 
offices that are the first line of knowledge and defense for 
the constituents in any State.
    I, too, have known him for a long time. There is not a time 
when I called Joe Allbaugh on something important to Texas that 
I did not get an immediate response and all of the information 
that I needed to do my job to represent my State. I think that 
he is totally equipped to handle this job and I think this 
should be one of the easiest confirmations that we have this 
year. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much, Senator Hutchison. 
I appreciate your being here, and I know you have other 
business, so thank you for being here with us.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Mr. Chairman. Good morning, Mr. 
Allbaugh, and congratulations on your nomination to direct 
FEMA. I would just repeat by reference the gratitude that 
Senator Gramm expressed on my behalf to you for returning me to 
this job that I love so much.
    As you know, the Federal Emergency Management Agency is 
there for people when they need assistance the most, to help 
them prepare for and recover from major disasters that destroy 
their property and disrupt their lives. As such, it is one of 
the government's most important front-line agencies.
    For the last 8 years, FEMA has been in the hands of an 
extremely capable and experienced emergency manager. James Lee 
Witt overhauled the entire agency in its operations. He 
heightened FEMA's response capabilities, and in doing so, I 
think improved the agency's public image overall. I hope, if 
confirmed, that you will build on Mr. Witt's successes and also 
tackle some of the issues that remain.
    For example, FEMA has rightly put pre-disaster prevention 
and preparedness at the top of its priority list, but attention 
now needs to be directed toward ensuring these prevention 
programs are accomplishing what they are meant to accomplish. 
The modernization of flood insurance rate maps is another 
important project, but here, too, funding has been a problem. 
Last year's modifications to FEMA's authorizing act, which put 
more emphasis on mitigation and require changes in FEMA's 
response and recovery programs, must now be properly 
implemented. I will say that within my own State of 
Connecticut, where we have had our share of flood and hurricane 
damage, we have called on FEMA for help and, generally 
speaking, the help has been there and been very important.
    I do want to report to you as you begin this work that my 
office in Hartford has heard some complaints from constituents 
who were dissatisfied with the service they received from some 
of the claims adjustors with which FEMA has contracted. I do 
not know whether this is a local experience or whether it is 
more national, but I would urge you to take a look at it. 
Obviously, the destruction of home and property strikes at the 
heart of an individual's world, and I am sure you will agree 
that when disaster hits, those caught in the way need quick, 
efficient, and, indeed, compassionate help to put the pieces of 
their lives back together again.
    I want to add, finally, that a number of communities in 
Connecticut, including Westport and Easthaven, have been 
selected by FEMA to participate in Project Impact, which as I 
am sure you know now is a pre-disaster mitigation program 
designed to reduce losses through preparedness. It is too early 
to pass judgment on this project, but I am pleased that towns 
in my State have been included in the effort and we look 
forward to working with them.
    Mr. Allbaugh, I appreciate your responses to the 
Committee's pre-hearing questions. If confirmed, your 
background in State Government will be an asset as you fulfill 
your duty to coordinate FEMA's activities with State and local 
governments. I look forward to your testimony and to getting to 
know you better. Thank you.
    Chairman Thompson. Thank you very much.
    Senator Voinovich, do you have any opening comments.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. I would like to 
welcome you, Joe Allbaugh, to this hearing. I enjoyed our 
meeting together. It is always good to have someone working in 
the Federal Government that has got some local and State 
experience. As chief of staff, you had to deal with many of the 
emergencies that you had in the State of Texas. I think that is 
going to serve you in good stead because you really have had an 
opportunity to observe the relationship between FEMA and State 
agencies.
    One of the things that I hope you are going to look at 
carefully is the emergency response capacities of the States in 
terms of how well they are organized. I remember when I became 
governor that one of the first things we did was to look and 
see if the counties in our State had their own emergency 
management capacities, and it was interesting that the ones 
that did when we had the floods and other things that occurred, 
they were able to deal with them responsibly and create 
partners with us and with the Federal Government.
    I will never forget one that I had where no one seemed to 
know what was going on and we finally turned it over to the 
State Highway Patrol captain who was on the scene who seemed to 
know more about what was going on than others. So I think that 
is a big challenge for you to see how well these States are 
organized to interface with FEMA.
    The other thing that we talked about was the issue of human 
capital, and again underscoring the fact that we know that by 
2004 at least one-third of the people in your shop will be 
eligible to retire and another 22 percent will be eligible for 
early retirement. Unfortunately, you really have no time to 
prepare for that because you never know when you are going to 
get hit. It could happen tomorrow, then you are going to have 
to respond. So that is an issue that I know you are looking at.
    As we talked earlier, you are fortunate in that of all 
these new applicants seeking jobs in the administration over 
the Internet, 10 percent of them would like to work in your 
agency. So it says a lot for that agency and what Mr. Witt did 
there and I feel very good about the fact that you are willing 
to come to Washington and take on this major responsibility and 
we look forward to working with you. Thank you, sir.
    Chairman Thompson. Thank you very much.
    Senator Akaka, do you have any opening comments?

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
join my colleagues in welcoming you to the Senate, Mr. 
Allbaugh, and also your wife, Diane.
    Mr. Allbaugh. Thank you.
    Senator Akaka. I also want to tell you that it was a 
pleasure to meet with you and to discuss your vision for FEMA.
    Mr. Allbaugh. Thank you.
    Senator Akaka. No one needs to remind you that you will be 
following the footsteps of a big man, as was mentioned. 
However, it is no joke when I say that your predecessor, James 
Witt, transformed FEMA into a top-notch organization that won 
the praise of those it serves, the people of America. I also, 
in that light, mention that we look upon you, also, as a big 
man coming into the job.
    As you know, I represent a State that is celebrated for 
untold natural beauty resulting from its geographical location 
and geological makeup. Even so, Hawaii is vulnerable to many 
natural disasters--hurricanes, volcanic eruptions, tsunamis or 
tidal waves, torrential rains and flooding, earthquakes, and 
even wildfires.
    FEMA has done a tremendous job in responding to Hawaii's 
disasters, most recently helping residents in the wake of a 
November storm that left some areas with over three feet of 
rain in a 24-hour period on the Island of Hawaii. FEMA 
personnel were there to help the Big Island residents cope with 
the $40 million worth of damages to homes, bridges, and roads.
    Helping the folks in Hawaii is just one example of FEMA's 
responsibilities in supporting the Nation in responding to 
natural disasters. FEMA also works with the States in preparing 
for homeland attacks and is the lead agency for disaster 
mitigation. As such, I urge FEMA to be in the forefront of 
cross-utilization of existing and emerging technologies. I 
commend the inter-agency cooperation, that exists and which was 
very clear in Hawaii's last disaster. FEMA has demonstrated 
through Project Impact, both of which utilize NASA satellite 
imaging data to help predict natural hazards and modify 
floodplain maps.
    Along the same line, I believe it would be beneficial to 
the Nation if FEMA joined with the U.S. Geological Survey and 
the Department of the Interior in working with DoD on the 
Hazard Support System. This program monitors wildfires, 
volcanic activity, using existing environmental and ballistic 
missile warning satellites. I look forward to working with you, 
Mr. Allbaugh, and FEMA on these issues that I believe hold so 
much promise for all of us.
    Again, thank you for being with us this morning and I wish 
you well.
    Mr. Allbaugh. Thank you, Senator. I appreciate it.
    Chairman Thompson. Thank you very much.
    Senator Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, I am glad to join others in 
welcoming Joe Allbaugh to our hearing this morning and 
congratulating him on his nomination for this job for which he 
is obviously very well qualified. I look forward to working 
closely with him as he directs this important agency in our 
government.
    Chairman Thompson. Thank you, Senator. Thank you very much.
    Senator Carnahan, I do not believe I have had the 
opportunity to welcome you to the Committee yet, so welcome. We 
are delighted to have you. Do you have any preliminary 
comments.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. Thank you,, Mr. Chairman. Mr. Allbaugh, I 
want to welcome you to this Committee. As you know, Missourians 
are not unfamiliar with natural disasters. Just 8 years ago, in 
1993, we experienced one of the worst natural disasters in 
Missouri history. Flood waters ravaged nearly every corner of 
our State and many hundreds of Missourians were left homeless. 
Countless businesses were shut down temporarily, and 
unfortunately, some of them for good. Damage estimates exceeded 
the $1 billion mark and it took years to recover.
    I can still remember watching from our residence at the 
governor's mansion as the water was rising day by day, breaking 
through the strong levees on the Missouri River, creeping over 
pasture land, and covering all but the rooftops of the hangars 
at our local airport. Ripping up the only highway into town, 
and spreading like an ocean onto the bluffs a couple miles 
away. The visual impact was overwhelming, but the hardest thing 
to deal with was the personal loss, the human suffering. The 
pain was so real and so deep.
    But Missourians are a resilient and resourceful people and 
communities came together, first to respond and then to 
rebuild. Our governments at the local, State, and Federal 
levels worked seamlessly to provide assistance during the 
crisis, and then to recover for the long term. Families moved 
back when it was safe to do so or they moved on to higher 
ground when it was not. The water subsided and life did, 
indeed, go on.
    I took so much with me from that experience. Far too much 
to share with you today during this hearing. But in the context 
of considering your nomination to head up this critical agency, 
the key lesson that I learned was the importance of inter-
governmental cooperation. Without question, the cooperation 
between the various levels of government made a dramatic 
difference in our ability to respond. Communication was 
streamlined, resources flowed relatively quickly, and most 
important, we provided comfort to the victims who were scared 
and needed assurance that they would receive help.
    In Missouri, we benefitted from a talented and decisive 
director of our State Emergency Management Agency. We also 
benefitted from the leadership of James Lee Witt at the Federal 
level. I give his tenure at FEMA high marks from the strong 
relationship he maintained with State directors to his focus, 
mitigating the effects of disasters, and his reform of the 
agency. Given your background and commitment, I have every 
reason to believe that you will continue that same high 
standard.
    It has been my experience that people are often critical of 
government, and sometimes rightly so. But in times of crisis, 
people naturally turn to our government for the assistance that 
only governments are equipped to provide. And they expect our 
government to respond quickly and effectively and 
compassionately. Your job, therefore, is extremely important. 
Not only will your actions impact the lives of thousands of 
Americans who have suffered through great tragedy, but it will 
also play a large role in determining the confidence and the 
faith that citizens have in our government.
    I would like to leave with you the words of Oliver 
Goldsmith, who said, ``The greatest object in the universe is a 
good person struggling with adversity. Yet, there is still a 
greater one, and that is the good person who comes to relieve 
it.'' My best wishes to you.
    Chairman Thompson. Thank you, ma'am.
    Senator Domenici.

             OPENING STATEMENT OF SENATOR DOMENICI

    Senator Domenici. Mr. Chairman, first of all, I want to 
thank you for expediting these hearings. I think it is 
imperative that we get Joe Allbaugh in that position as quickly 
as possible and your hearings are going to accommodate that.
    I am presiding over a Budget Committee hearing and will not 
be able to stay, but I would, with your concurrence, Mr. 
Chairman, I want to just do two things. I want to welcome you 
and tell you that my review of your record and my talk with you 
in my office would indicate to me that the President has chosen 
wisely. I wish you well.
    Chairman Thompson. Thank you.
    Senator Domenici. It is a very tough job, no question about 
it.
    And second, everybody talks about problems they have in 
their State and I just want to tell you that this Congress was 
extremely generous and appropriated over $600 million in 
extraordinary special relief to the County of Los Alamos, New 
Mexico, after the big fire that burned down 400 homes and did 
untold amount of damage to businesses and burned down a lot of 
our forest, etc. We did an extraordinary thing. We passed a 
bill certain for them. We are giving all of them damages 
because the Federal Government started this fire. It was a fire 
started by somebody running a park adjacent to Los Alamos. It 
was a controlled burn and done according to everyone that 
looked at it, improperly and it burned down about $700 million 
worth of assets, homes and the like.
    I am not very happy about what is happening to that project 
under FEMA right now. Maybe it is because James Lee Witt is 
gone and it is not under control, but I would ask you if you 
would particularly look at that from the standpoint of whether 
we are spending too much money on administration, whether the 
delays are justified in terms of coming up with the conclusions 
required by law. We required certain things of the agency and 
they have not been done yet and they only have a couple of 
weeks to do them, and I am kind of wondering why.
    So I guess, generally, I am going to ask you or lay before 
you that you take a look at that with your best people in order 
to expedite it and see that fairness and the statutory desires 
and the statutory goals are met. I am sure you will do that, 
and it is good for me to have an opportunity to tell you about 
it publicly. After you are in there for a while, I would 
appreciate hearing from you with reference to this issue.
    Mr. Allbaugh. I will be happy to do that, Senator.
    Senator Domenici. And I will have a signed letter on your 
desk when you become the head man. It will be waiting for you 
there. Thank you very much.
    Mr. Allbaugh. Thank you, sir.
    Chairman Thompson. Thank you very much.
    Mr. Allbaugh, do you have a statement that you would like 
to make?

 TESTIMONY OF JOE M. ALLBAUGH\1\ TO BE DIRECTOR OF THE FEDERAL 
               EMERGENCY MANAGEMENT AGENCY (FEMA)

    Mr. Allbaugh. Mr. Chairman and Members, I do have a 
statement, but in the interest of time and not running the risk 
of wanting to offend anybody, I would prefer not to read it to 
you and just have it submitted, without objection, for the 
record.
---------------------------------------------------------------------------
     \1\ The prepared statement of Mr. Allbaugh appears in the Appendix 
on page 21.
      Biographical and financial information appear in the Appendix on 
page 24.
      Pre-hearing questions and responses appear in the Appendix on 
pages 33
      Post-hearing questions and responses appear in the Appendix on 
pages 47.
---------------------------------------------------------------------------
    Chairman Thompson. It will be part of the record.
    Mr. Allbaugh. I would like to make a few comments, though, 
if you do not mind. First, I would like to thank Senators Gramm 
and Hutchison. Texas could not be represented by two finer 
individuals. I am honored that they came this morning to 
introduce me.
    Second, the President nominated me to this position because 
of our close relationship over the last 7 years. Then-Governor 
Bush and I, his chief of staff, worked diligently in handling 
nine Presidential disaster declarations during that time 
period. I know firsthand that it is very important for State 
Governments as well as the Federal Government to act swiftly, 
as Senator Carnahan said, with the full resources that are 
available at our disposal.
    Based upon our relationship and knowing exactly the kind of 
information that the President will need to make disaster 
decisions, I believe I am well suited for this job. It is a 
good fit. I am a doer. I consider the agency a doing agency and 
I am honored to have been nominated.
    Many people have alluded to James Lee Witt this morning. I 
was very fortunate to get to know James Lee Witt when I was the 
Chief of Staff for Governor Bush. He was the FEMA Director, as 
you know, and he did an outstanding job. I think the country 
owes him a debt of gratitude for his service over the last 8 
years.
    Last, I would like to thank the Committee, also, for making 
time for me to appear this morning, and for your staff's work 
in preparation for this hearing. I would be happy to entertain 
any questions, should you have any.
    Chairman Thompson. All right. Thank you very much. As I 
indicated earlier, the Committee submitted some substantive 
pre-hearing questions to the nominee and the nominee has also 
met with Committee staff to discuss a variety of issues of 
Congressional interest regarding FEMA. Your written responses 
to the questions will be made a part of the record
    I will start my questioning with questions we ask of all 
nominees. Is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Allbaugh. No, sir.
    Chairman Thompson. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities as the Director of 
FEMA?
    Mr. Allbaugh. No, sir.
    Chairman Thompson. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Allbaugh. I do.
    Chairman Thompson. All right. Thank you very much.
    I think that you can see from the fact that we have several 
Senators here this morning at your confirmation hearing, which 
is not always the case, your area is where we really live, so 
many of us. I was noticing Tennessee has had five tornados 
during the last 6 years, in addition to other problems. So many 
of us know that at one time or another we are going to have to 
work with you. That may not be good news for you, but it is 
important to us, and I am sure several people will have 
questions concerning those activities.
    I want to concentrate on something a little bit different 
regarding this Committee's responsibility which has to do with 
some of the management issues that we face. On the Results Act 
issue, have you become somewhat familiar with the Results Act--
--
    Mr. Allbaugh. Somewhat, sir.
    Chairman Thompson [continuing]. And the fact that what we 
are trying to do nowadays is try to get departments and 
agencies to plan for results, to plan for outputs instead of 
just inputs, and to figure out ways in which we can measure 
those things and report them every year. FEMA has received high 
marks recently for its renewed emphasis on management. In a 
recent report, the Mercada Center wrote that, ``the experience 
of the Federal Emergency Management Agency confirms that it is 
possible for a Federal agency to achieve major improvements in 
both performance and cost effectiveness. Such achievements 
resulted not from a single silver bullet but from a collection 
of management actions that transformed a bureaucratic process-
driven organization into a responsive result-driven 
organization.''
    The Mercada Center attributes this change largely to the 
performance-based management that is now in place at FEMA. I 
take it that you plan to sustain this management improvement 
and maintain the organization's role as a model for other 
agencies. We spend an awful lot of time criticizing an awful 
lot of agencies--the high-risk list and failure to comply with 
the Results Act and so forth. FEMA is one of the few bright 
spots, frankly, that I have seen lately. But again, that is 
mixed news to you. You have something that you have to live up 
to and then build on, and I take it that you understand that 
and plan to renew the commitment to the implementation of the 
Results Act.
    Mr. Allbaugh. I do, indeed. It is my understanding that 
FEMA in recent years has made great strides in the area of 
accountability. I am one that is a stickler for accountability. 
I like to align responsibility with authority, and quite 
frankly, the person that I would hold most responsible for that 
right off the bat would be myself. I will measure up or muster 
out, as they say. I know that the agency has come a great 
distance and has received high marks and I would like to review 
that act and continue that policy.
    Chairman Thompson. I think the key to good results, as 
proven by other agencies, too, is accountability--you put 
somebody on it who is primarily responsible for it under you 
who is good at it and that you hold them accountable and that 
you become accountable yourself.
    There is another area where the news is not quite as good. 
As you know, FEMA relies heavily on information technology to 
meet its operational goals. In fact, all agencies, of course, 
rely more and more on it. Earlier this year, we conducted a 
review of Federal agency compliance with the Clinger-Cohen Act 
and found that many agencies were not complying with the law 
and were not conducting cost-benefit analysis before investing 
in computer systems, and as you know, FEMA relies heavily upon 
computers to provide services to disaster victims. Yet FEMA 
sometimes seems to be making less than a full attempt to comply 
with this information technology law.
    In fact, the report that we commissioned found that FEMA 
does not have a capital planning and investment process in 
place, which is required by the Clinger-Cohen, and, therefore, 
it is not conducting cost-benefit analysis before investing in 
its computer systems. Will you take a look at that and make a 
renewed commitment? This is an area where you can show, I 
think, marked improvement.
    Mr. Allbaugh. I will be happy to take a look at it. I am 
not familiar with the specifics, but I know IT all across the 
world is an important component of our survival these days and 
I will report back to you as soon as I can.
    Chairman Thompson. All right. I would appreciate that, 
because we are a little behind the curve in that area.
    Finally, more than 28 government agencies are involved in 
some aspect of the response and recovery phases of disaster 
response recovery. Some of those include the Department of 
Treasury, Department of Health and Human Services, Department 
of Housing and Urban Development, and others. Many times, the 
coordination between and among these agencies is not efficient 
or effective. Everybody looks to FEMA, but as you know, there 
are a lot of cooks in the kitchen sometimes.
    How would you characterize the inter-agency coordination as 
you see it and are there phases--as you know, there are 
basically four phases, preparedness, response, recovery, and 
mitigation--for which you believe the need for coordination is 
more significant?
    Mr. Allbaugh. I would imagine that there is always room for 
improvement from top to bottom and across the lines of 
authority among all the agencies. I would take the initiative 
myself to reach out to those agencies and make sure that there 
is a two-way dialogue and ongoing constant communication among 
those agencies so there would be in time of need close 
cooperation for those resources that we will call upon.
    I am not particularly familiar with how the structure works 
right at the moment, but I can assure you I will get my teeth 
right into it as soon as I have the ability to get over there 
and I will also report back on that coordination.
    Chairman Thompson. I appreciate that.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Mr. Allbaugh, let me indicate that two of my colleagues who 
are unable to be here this morning, Senator Levin and Senator 
Torricelli, will have post-hearing questions for you. Senator 
Levin has already given his to me and we will convey them to 
the folks who are working with you. Senator Torricelli said 
that he would have his this afternoon and we will get those to 
you as quickly as possible.
    Mr. Allbaugh. Yes, sir.
    Senator Lieberman. I would appreciate as quick a response 
as you can.
    Mr. Allbaugh. You bet.
    Senator Lieberman. Mr. Allbaugh, I think you know that 
there is a lawsuit in Texas which has raised some controversy 
and questions which some have directed toward your nomination 
and I wanted to ask you some questions about it here. I know 
the Committee has asked you some before the hearing, and I 
appreciate your cooperation in answering those, but I think it 
is important to get some questions and answers on the record.
    For the record, as I am sure you know, a lawsuit is pending 
in Texas regarding an investigation by the Texas Funeral 
Services Commission into the activities of a major funeral home 
corporation called Service Corporation International, SCI. The 
lawsuit alleges that the Executive Director of the Funeral 
Commission, Ms. Eliza May, was wrongfully terminated because of 
her role in the investigation of SCI, the funeral corporation. 
Some of the allegations in this lawsuit involve incidents that 
occurred during meetings and conversations in which you were 
involved as Governor Bush's Chief of Staff.
    I want to ask you a few questions about that now and I am 
going to be as direct as possible. Did you ever try, as is 
alleged, to stop the Funeral Service Commission investigation 
of SCI and its related entities from going forward?
    Mr. Allbaugh. No, sir, I did not.
    Senator Lieberman. If you want to add any more as we go on, 
I invite that, but I will go through the questions. Did you 
ever limit or try to limit the scope of the records or other 
materials that the Texas Funeral Services Commission was 
seeking from SCI or its related entities as part of this 
investigation?
    Mr. Allbaugh. No, sir, I did not.
    Senator Lieberman. Did you ever speak to Ms. May about this 
investigation or related events in a threatening manner?
    Mr. Allbaugh. No, sir, I did not. I invited her to my 
office, as I did with a lot of executive directors as a part of 
my role as chief of staff and we had a conversation, albeit a 
brief conversation, but I would not do any such thing.
    Senator Lieberman. Have your actions in this matter ever 
been the subject of any ethics, criminal, or similar type of 
investigation?
    Mr. Allbaugh. No, sir, they have not.
    Senator Lieberman. And I understand that though you were 
mentioned in the lawsuit, you are not a named defendant in the 
lawsuit, is that correct?
    Mr. Allbaugh. That is my understanding, as well.
    Senator Lieberman. Let me ask you, finally, having asked 
those specific questions, if you would now, just for the 
record, to the best of your recollection, state the nature of 
your involvement in the situation in the case that is the basis 
for the lawsuit that I have mentioned.
    Mr. Allbaugh. I was asked by a State Senator from Houston 
to facilitate a meeting, actually, attend a meeting he was 
having on a Friday, I believe, about 3 years ago. He had 
invited representatives from the Texas Funeral Commission and 
SCI to be in attendance. I told him I could not be in 
attendance. In another part of the building, I was due to do 
some things with Governor Bush and I could not leave. But I 
offered up my office as a place to host the meeting. Everyone 
congregated. I turned to Senator Whitmire, who was the Senator 
who asked for the meeting, and I basically said, the show is 
yours.
    Senator Lieberman. Let me interrupt just for a moment. Do I 
understand correctly that Senator Whitmire asked for the 
meeting because he was concerned about the way in which the 
Funeral Services Commission was going after SCI?
    Mr. Allbaugh. The way he explained it to me was that there 
were numerous documents that the Texas Funeral Service 
Commission was after, and his constituents, SCI, were curious 
in trying to figure out exactly what documents the Texas 
Funeral Commission were after. That was the purpose of the 
meeting, to try to bring some conclusion and finality as to 
what they were after. I saw my role, quite frankly, no more 
than a facilitator, which is something I did with great 
regularity as the chief of staff when there were two parties 
that had differing opinions about things.
    Senator Lieberman. And what happened at the meeting?
    Mr. Allbaugh. Probably 10, 12, or 15 people showed up. It 
seemed like forever, and I brought the meeting to closure by 
asking the Chairman of the Funeral Services Commission, who was 
present, Dick McNeil, and his staff to ultimately provide a 
list of materials that they were interested in obtaining from 
SCI. They agreed to do that. They provided that later in the 
afternoon after the meeting adjourned and that was the end of 
it.
    Senator Lieberman. Did you have any further contact with 
the matter after that?
    Mr. Allbaugh. I called the executive director, which was 
normal course of business for me, to set up a meeting. I 
noticed in the larger meeting with everyone present, she was 
not really participating and it was a clear signal to me that 
there might be something that this office needed to know about, 
the governor's office. So I asked for a private meeting. She 
came over and there was not really anything that she shared 
with me. That was the end of the meeting and that was the last 
time I spoke with her.
    Senator Lieberman. And the tenor, the mood of that meeting 
was business-like and----
    Mr. Allbaugh. It was business-like, short, sweet, to the 
point. Actually, she was non-participatory in any questions 
that I asked except that she alluded to the fact that there 
were several death threats against members of the commission 
and I suggested to her that we needed that information as 
quickly as possible to turn it over to the proper authorities, 
the Texas Public Safety Department, and the Texas Rangers----
    Senator Lieberman. Based on this case, she said----
    Mr. Allbaugh. I beg your pardon?
    Senator Lieberman. In her opinion, the death threats were 
related to the investigation of SCI?
    Mr. Allbaugh. That was her opinion, and I needed that 
information to turn over to the proper authorities, the Texas 
Rangers, for investigation.
    Senator Lieberman. Did she ever provide you with that 
information?
    Mr. Allbaugh. Sir, she did not.
    Senator Lieberman. And that was Ms. May, I gather?
    Mr. Allbaugh. Yes, sir.
    Senator Lieberman. And after that meeting, did you have 
further involvement in this matter?
    Mr. Allbaugh. Only one additional meeting. Chairman Dick 
McNeil dropped by at his request to bring me an update as to 
the status of things and that was my last involvement with this 
entire issue.
    Senator Lieberman. To the best of your recollection, what 
was the nature of the investigation and how did it conclude?
    Mr. Allbaugh. I believe there was a fine involved, which 
has been appealed, and I really do not know that it has been 
brought to closure, quite frankly.
    Senator Lieberman. But the basic nature of the 
investigation, presumably, was that there had been complaints 
against the funeral home or the----
    Mr. Allbaugh. As I understand it, there were complaints 
against SCI for some type of educational practices. I really do 
not know any more than that, and the basis for the 
investigation by the Texas Funeral Commission was to get at the 
core of those complaints.
    Senator Lieberman. Is it a fact, to the best of your 
knowledge, that Ms. May was sometime thereafter terminated as 
Executive Director of the Funeral Services Commission?
    Mr. Allbaugh. That is my understanding. I read about it in 
the Austin American Statesman.
    Senator Lieberman. Right. I am tempted to ask you whether 
you believe everything you read in the Austin American 
Statesman.
    Mr. Allbaugh. Parts.
    Senator Lieberman. Do you remember how soon after, 
generally speaking, this series of events regarding SCI that 
Ms. May was terminated?
    Mr. Allbaugh. I want to say 5 or 6 months. I do not exactly 
know. My meeting with Ms. May was in August 1998 and I think 
she was terminated in early 1999.
    Senator Lieberman. Did you have any involvement in the 
commission's decisions that led to her termination?
    Mr. Allbaugh. None whatsoever.
    Senator Lieberman. So that what you are testifying today is 
that the first time you heard about it was, to the best of your 
recollection, when you read about it in the newspaper?
    Mr. Allbaugh. That is exactly what I would say. The first 
time I ever heard about her dismissal was reading about it in 
the newspaper.
    Senator Lieberman. Fine. Thanks, Mr. Allbaugh. I do not 
have any further questions about that. I believe some of my 
colleagues in some of the post-hearing questions may.
    Mr. Allbaugh. Sure.
    Senator Lieberman. Let me step back now from that and ask 
you an open-ended question about the position for which you 
have been nominated, and I understand that you have had 
experience with FEMA from the State level. Coming in, what 
would you say are the biggest challenges that are facing FEMA 
today? What kind of priorities do you have as you contemplate 
beginning this work?
    Mr. Allbaugh. I think the biggest challenge is proper 
training. There is nothing in the world that can replace 
experience other than experience. Being prepared is probably 
its most important goal at FEMA, to handle disasters as they 
arise. An ongoing, aggressive training program, not only at the 
national level but at the State level, would be one of my top 
priorities. I know there is close coordination right now, but I 
believe there probably needs to be a little more attention paid 
to training.
    Senator Lieberman. OK. The State emergency management 
directors in the Northeast have raised a concern regarding the 
costs that State and local jurisdictions incur in conducting 
rescue and recovery operations after a major rail or aircraft 
disaster is what they are thinking of here. A number of these 
accidents have occurred in recent years, such as the TWA Flight 
800 and Egyptian Air Flight 990, and while the Federal 
Government has eventually reimbursed those expenses, this 
repayment has usually only come months later through a special 
Congressional appropriation. There is no regularized process 
under which disaster assistance is provided to States or 
municipalities handling these accidents. I am sure you are 
aware of that. Unfortunately, this can be a real burden for a 
small government that counts on that money to pay local 
expenses.
    I note that FEMA's jurisdiction does not now include rail 
or aircraft accidents as major disasters, which would allow 
States to apply for this assistance. I do not know if you have 
ever given this any thought, but I wonder, if you are 
confirmed, would you be open to working with the States and 
local governments to finding a solution to this problem either 
through an expansion of FEMA's jurisdiction or some other 
means?
    Mr. Allbaugh. I am not familiar with any particular rail or 
air disaster, Senator, but I would be happy to take a look at 
the issue, if confirmed and when confirmed, and report back to 
you as soon as I could and see what we might be able to work 
out insofar as expanding FEMA's focus, if necessary.
    Senator Lieberman. Fine. The final question is really one 
that I would bring to your attention, and I doubt that you have 
had a chance to think about it, but it may be coming in your 
direction. If you have any first reactions to it, I would 
welcome them.
    A few weeks ago, a blue ribbon panel chaired by former 
Senators Gary Hart and Warren Rudman issued a draft final 
report, and this was about national security threats we are 
going to face and how to best deal with them. I want to quote 
from one of their findings. ``The combination of unconventional 
weapons proliferation with the persistence of international 
terrorism will end the relative invulnerability of the American 
homeland to catastrophic attack. A direct attack against 
American citizens on American soil is likely over the next 
quarter century,'' from the Hart-Rudman Commission.
    The report raises the concern that our Nation has no 
coherent or integrated governmental structures to prepare for 
the possibility of such an attack and suggests the formation of 
a new agency that would have responsibility for planning, 
coordinating, and protecting our citizens and our critical 
infrastructure. Now, naturally, some of these concerns are not 
dissimilar to what FEMA does now, although FEMA's work is, of 
course, related to natural disasters.
    I wonder if you have any first thoughts on the commission's 
alarm, and if not, I understand, of course, and I urge you to 
think about it and, if you are confirmed, get involved in the 
governmental response to this concern because I think it is 
real.
    Mr. Allbaugh. The only thoughts I would have is that I am 
familiar with the report, the Hart-Rudman report, as well as 
the Gilmore Commission reports, and I share your concern as 
well as many others on the threat of domestic terrorism. There 
has to be an apparatus where there is an authority, an entity 
that is ultimately responsible for implementation at the 
appropriate time and I would love to have some time to review 
those reports and respond back to you, Senator.
    Senator Lieberman. I would appreciate that. Thank you very 
much.
    Mr. Allbaugh. Thank you.
    Senator Lieberman. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. Senator Cochran.
    Senator Cochran. Mr. Allbaugh, I noticed when you mentioned 
one of your high priorities would be improved training of 
personnel at FEMA, and I applaud you for that because if some 
experiences that we have had in my State between the Federal 
staff of FEMA and local officials. There have been 
misunderstandings. Some local officials have reported that 
depending on who they talked with at the Federal agency, 
conflicting information about the assistance FEMA would provide 
for the repair of damaged structures, public buildings, and 
roads and bridges--following a federally-approved disaster--was 
given.
    I hope that you will follow through with that priority 
because I think there can be improvements made in the way the 
Federal staff interact with local officials to try to keep 
misunderstandings to a minimum. I know there are bound to be 
some, and human error is going to happen from time to time. But 
this has been a problem that I have had brought to my attention 
in my State and wonder how you plan to go about trying to 
minimize that difficulty in the future.
    Mr. Allbaugh. Well, I agree with you, Senator. There will 
always be mistakes made and the name of the game is to minimize 
mistakes. So the best way to keep those misinformation items to 
a minimum is a two-way dialogue between the States and FEMA, 
whether it is at the regional office or at the national office, 
and I would work hard to achieve that.
    Senator Cochran. One thing that has been created is a new 
program, the Firefighters Assistance Grant Program, that would 
provide some Federal assistance for local governments and 
communities for emergency equipment and vehicles, firefighting 
equipment in particular, and the funding is going to be made 
available, as I understand the new law and new appropriations 
language, through the U.S. Fire Administration. I noticed in 
your opening statement, which we have accepted for the record, 
you mentioned improving the administrative strength of the U.S. 
Fire Administration. Is this an agency that comes directly 
under FEMA? How would you interact with that agency?
    Mr. Allbaugh. It is my understanding it does.
    Senator Cochran. One of the things that we hope will be 
done is that those communities that would like to have the 
benefit of this program can look forward to early action by the 
administration to make available these new items of equipment 
for firefighting and, through training and response programs, 
help communities prepare to minimize the damage from natural 
disasters., I commend you for your making a point to emphasize 
the enhancement of the capabilities of the U.S. Fire 
Administration. I wish you well in that.
    Mr. Allbaugh. Thank you, sir.
    Senator Cochran. And if you need any additional funds for 
that, let us know about that. I hear that OMB is going through 
the budget request and making it pretty hard on anyone looking 
for additional funds, and may be looking to rescind some funds 
that have been previously appropriated. I hope you will weigh 
in real hard to try to keep any cuts from occurring in the U.S. 
Fire Administration's program that would benefit local 
communities.
    Mr. Allbaugh. I will be happy to look into that.
    Senator Cochran. My last question has to do with flood 
zones and mapping. FEMA has a special responsibility in this 
area, maintaining and updating flood maps to identify areas and 
communities that are in a flood zone which would require 
certain flood insurance protection of local owners of property. 
This program has generally been beneficial in our State, but 
some have been put at a disadvantage financially when they buy 
a house, for example, that was not in a flood zone but then the 
new map comes out and it shows that it is in a flood zone and 
the property values decline. The requirements for insurance 
purchases impose new financial obligations.
    The reason I bring this up is because there is still a lot 
of mapping that is yet to be done and completed, and in a lot 
of areas of the country, this has been slow in being finalized. 
So I hope that you will be able, as the new administrator, to 
give a higher priority to completing these flood maps so that 
people who are worried about what their future is and how their 
property values are going to be affected will get some 
expeditious attention and we can see that program completed at 
an early date.
    Mr. Allbaugh. The program will be a high priority for me.
    Senator Cochran. Thank you very much. Thanks, Mr. Chairman.
    Chairman Thompson. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Before I go on with my questions, I want to thank you, Mr. 
Allbaugh, for your responses to questions regarding the Texas 
State Funeral Commission.
    As Senator Lieberman mentioned, there have been many recent 
proposals to reorganize the Federal agencies with respect to 
national preparedness and terrorism response. These include 
establishing a new executive office for combatting terrorism 
and creating a special assistant for homeland issues on the 
staff of the Vice President or a new cabinet-level position.
    The Hart-Rudman Commission proposes building a National 
Homeland Security Agency upon the capabilities of FEMA, an 
agency they recognize as performing well in recent years, 
especially in response to national disasters. The new agency 
would retain and strengthen FEMA as a core element of its 
organizational structure. Finally, to fully complement the 
different activities that a National Homeland Security Agency 
would need to perform, the commission recommends transferring 
the Customs Service, Border Patrol, and Coast Guard to the new 
agency while preserving them as distinct entities.
    How do you think that such a restructuring would take place 
and potentially affect FEMA as a whole, especially the non-
national preparedness activities of FEMA, such as flood plain 
mapping and national hazards research?
    Mr. Allbaugh. I am not sure that I know enough to comment 
intelligently about the creation of a new agency, Senator. I 
would love to get my arms around that particular subject and 
study Hart-Rudman a little bit longer, quite frankly, before I 
respond to you, but I would be happy to get back to you as soon 
as I do that.
    Senator Akaka. Thank you. We would certainly like to hear 
from you on that.
    I would like to discuss biological threats in a little more 
detail because of the special issues they present. Unlike other 
terrorist attacks, a biological weapon threat is not finite or 
overt. It may take days or weeks before the health care 
community realizes that there is a problem and even longer 
before the source of the event, whether natural epidemic or 
bioweapon, is known.
    FEMA's Rapid Response Information System is a good start in 
getting Federal, State, and local emergency responders prepared 
for responding to a weapon of mass destruction event. However, 
attending physicians and nurses are not typical emergency 
respondents. According to a presentation at a recent 
bioterrorism conference, there are too few doctors aware of the 
bioweapons threat and fewer hospital administrators willing to 
implement programs to prepare for what they perceive to be a 
very unlikely event.
    My question to you is, how can FEMA improve awareness among 
these health care providers?
    Mr. Allbaugh. Senator, there is an opportunity to reach out 
to the professionals who know this area better than anyone else 
and I would look to include them in an ongoing dialogue with 
FEMA if I am confirmed. Additionally, you should know, I spoke 
with Senator Mikulski earlier in the week about this particular 
subject. It is a high priority for her, as well, and I would 
like to be in a position to respond to both you and Senator 
Mikulski at the appropriate time on this subject.
    Senator Akaka. Thank you very much, Mr. Chairman. Thank 
you, Mr. Allbaugh.
    Chairman Thompson. Thank you very much.
    As Senator Lieberman said, there will be written questions 
submitted. Perhaps we can get those in by the end of the day. 
Senator Lieberman, do you think that is a possibility?
    Senator Lieberman. That is my hope, Mr. Chairman. I have 
Senator Levin's now and Senator Torricelli has indicated he 
would have his in to us by this afternoon. We will get them 
right to you.
    Chairman Thompson. The quicker you turn that around, the 
quicker we can operate.
    Senator Lieberman, do you have any further questions?
    Senator Lieberman. I do not, Mr. Chairman. I thank the 
witness.
    Chairman Thompson. I thank the witness. I appreciate the 
hearing today. We will move on your nomination as soon as we 
can, and good luck to you.
    Mr. Allbaugh. Thank you, Mr. Chairman. Thank you, Senators. 
I look forward to working with all of you.
    Senator Lieberman. Thank you.
    Chairman Thompson. Thank you very much. We are adjourned.
    [Whereupon, at 11:35 a.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0751.001

[GRAPHIC] [TIFF OMITTED] T0751.002

[GRAPHIC] [TIFF OMITTED] T0751.003

[GRAPHIC] [TIFF OMITTED] T0751.004

[GRAPHIC] [TIFF OMITTED] T0751.005

[GRAPHIC] [TIFF OMITTED] T0751.006

[GRAPHIC] [TIFF OMITTED] T0751.007

[GRAPHIC] [TIFF OMITTED] T0751.008

[GRAPHIC] [TIFF OMITTED] T0751.009

[GRAPHIC] [TIFF OMITTED] T0751.010

[GRAPHIC] [TIFF OMITTED] T0751.011

[GRAPHIC] [TIFF OMITTED] T0751.012

[GRAPHIC] [TIFF OMITTED] T0751.013

[GRAPHIC] [TIFF OMITTED] T0751.014

[GRAPHIC] [TIFF OMITTED] T0751.015

[GRAPHIC] [TIFF OMITTED] T0751.016

[GRAPHIC] [TIFF OMITTED] T0751.017

[GRAPHIC] [TIFF OMITTED] T0751.018

[GRAPHIC] [TIFF OMITTED] T0751.019

[GRAPHIC] [TIFF OMITTED] T0751.020

[GRAPHIC] [TIFF OMITTED] T0751.021

[GRAPHIC] [TIFF OMITTED] T0751.022

[GRAPHIC] [TIFF OMITTED] T0751.023

[GRAPHIC] [TIFF OMITTED] T0751.024

[GRAPHIC] [TIFF OMITTED] T0751.025

[GRAPHIC] [TIFF OMITTED] T0751.026

[GRAPHIC] [TIFF OMITTED] T0751.027

[GRAPHIC] [TIFF OMITTED] T0751.028

[GRAPHIC] [TIFF OMITTED] T0751.029

[GRAPHIC] [TIFF OMITTED] T0751.030

[GRAPHIC] [TIFF OMITTED] T0751.031

[GRAPHIC] [TIFF OMITTED] T0751.032

[GRAPHIC] [TIFF OMITTED] T0751.033

[GRAPHIC] [TIFF OMITTED] T0751.034

[GRAPHIC] [TIFF OMITTED] T0751.035

[GRAPHIC] [TIFF OMITTED] T0751.036

[GRAPHIC] [TIFF OMITTED] T0751.037

[GRAPHIC] [TIFF OMITTED] T0751.038

[GRAPHIC] [TIFF OMITTED] T0751.039

[GRAPHIC] [TIFF OMITTED] T0751.040

[GRAPHIC] [TIFF OMITTED] T0751.041

[GRAPHIC] [TIFF OMITTED] T0751.042

[GRAPHIC] [TIFF OMITTED] T0751.043

</pre></body></html>
